                Increased Attention Is Needed to Reduce
                  Taxpayer Burden and Ensure Fair and
               Consistent Tax Treatment When Filing Small
                    Business Corporate Tax Returns

                                 September 2004

                       Reference Number 2004-30-172




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                September 23, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                        Gordon C. Milbourn III
                                   Acting Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - Increased Attention Is Needed to Reduce
                                   Taxpayer Burden and Ensure Fair and Consistent Tax Treatment
                                   When Filing Small Business Corporate Tax Returns
                                   (Audit # 200430006)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      actions to effectively address the burden and compliance issues related to
      unprocessable U.S. Income Tax Returns for an S Corporation (Form 1120S). In a
      previous report,1 the Treasury Inspector General for Tax Administration recommended
      that the IRS seek alternatives to make it easier for first-time filers to be granted
      elections and file their Forms 1120S and that the IRS clarify procedures for handling
      unprocessable Forms 1120S. The overall objective of this review was to determine
      whether the IRS took the necessary actions to effectively address the burden and
      compliance issues related to unprocessable Forms 1120S.
      In summary, more needs to be done to address the burden and compliance issues
      related to unprocessable Forms 1120S. In the prior review, we reported that the filing
      and processing of small business corporate returns needed to be simplified to better
      enable small businesses to successfully file their Forms 1120S. We estimated that
      each year, over 46,000 small businesses were unsuccessful in filing their Forms 1120S
      because the IRS did not have valid elections on file to allow their returns to be
      processed. In this review, we found the IRS took actions to address the need for
      legislative changes. However, the IRS needs to continue to pursue legislative changes
      and alternative measures to make the current election process less burdensome. We
      recommended the Director, Taxpayer Education and Communication, Small

      1
       The Internal Revenue Service Needs to Simplify Filing Requirements and Clarify Processing Procedures for Small
      Business Corporate Returns (Reference Number 2002-30-186, dated September 2002).
                                                          2


Business/Self-Employed (SB/SE) Division, adopt interim measures, while the IRS
pursues legislative changes, including increasing the frequency and availability of
taxpayer and practitioner education regarding the requirements to file an election prior
to filing the first Form 1120S, and the evidence needed to document that the IRS
approved the election.
In the prior review, we also reported the IRS did not consistently process Forms 1120S
and determine the correct taxes due from small business corporate taxpayers. We
estimated that because returns were not processed correctly, there was the potential for
the erroneous assessment of taxes on $41 million of profits and the inability of
taxpayers to claim $100.3 million in losses.2 In addition, because of unclear IRS
procedures, we estimated that each year, approximately 3,700 taxpayers who file
unprocessable Forms 1120S may have their rights violated because the IRS assesses
taxes on profits of approximately $6.7 million without providing taxpayers with a
statutory notice of deficiency.3 In this review, we found the IRS has not taken sufficient
actions to correct these conditions. Policies and procedures still need to be developed
and adequate staffing needs to be committed to correct the compliance issues related
to unprocessable Forms 1120S.
We recommended that the Director, Customer Account Services, SB/SE Division,
develop clear and consistent guidelines for processing the Forms 1120S when either no
elections or delinquent elections are received. Also, the Director, Compliance, SB/SE
Division, should ensure that procedures are clarified to assign responsibility for
determining and assessing the correct taxes and issuing statutory notices of deficiency
for small business corporations and their shareholders when Forms 1120S are
converted to regular corporate returns when there is no valid election on file.
Additionally, we recommended that the Commissioner, SB/SE Division, commit the
necessary resources to ensure unprocessable Forms 1120S and individual income tax
returns for their related shareholders are fairly and consistently taxed.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations and the need to continue expanding taxpayer education on
requirements for filing small business corporation elections. The IRS is currently
pursuing the options of legislative or regulatory change, while increasing communication
with taxpayers. SB/SE Division management plans to add new language to the next
edition of their Small Business Tax Workshop materials to explain the requirement to file
an election prior to filing the first Form 1120S and describe the evidence needed to
document that the IRS approved the election. An article on Form 1120S elections will
be developed and distributed as a Taxpayer Education and Communication Headliner
to payroll and practitioner associations; trade, business, and professional associations;


2
  We had reported the IRS did not process an estimated 9,000 returns as small business corporations, even after the
taxpayers verified that their election requests were granted.
3
  A statutory notice of deficiency is a notice that allows the taxpayer to respond to the proposed assessment before
taxes are actually assessed.
                                           3


government agencies; and educational organizations. Once distributed through the
channels, the Headliner will be posted on the IRS website.
SB/SE Division management updated Internal Revenue Manual procedures and issued
a Program Enhancement to ensure clear and consistent guidelines for handling
unprocessable Forms 1120S. The SB/SE Division will clarify the procedures to assign
responsibility for determining and assessing the correct taxes and issuing statutory
notices of deficiency for small business corporations and their shareholders when
Forms 1120S are converted to Forms 1120 because there were no valid elections on
file. Clarification was issued to campus operations and related procedural changes
were implemented regarding the requirement to use Statutory Notice procedures on
Form 1120S returns that were converted to Forms 1120. SB/SE Division management
is also completing a comprehensive analysis and developing strategies for committing
the necessary resources to ensure that unprocessable Forms 1120S and their related
shareholders are fairly and consistently taxed. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs) at (631) 654-6028.
            Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
                Fair and Consistent Tax Treatment When Filing Small Business
                                    Corporate Tax Returns




                                                  Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Needs to Continue to Pursue
Legislative Changes and Alternative Measures to Make the
Current Election Process Less Burdensome............................................. Page 2
         Recommendation 1: .......................................................................Page 4

The Internal Revenue Service Did Not Take Sufficient Actions to
Promote Fair and Equitable Compliance Practices for Taxpayers
Who Filed Unprocessable Forms 1120S................................................... Page 5
         Recommendations 2 through 4:.....................................................Page 11
         Recommendation 5: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – How Small Business Corporate Taxpayers File, and
the Internal Revenue Service Processes, Small Business
Corporate Elections and Tax Returns ....................................................... Page 17
Appendix V – Management’s Response to the Draft Report ..................... Page 18
         Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
             Fair and Consistent Tax Treatment When Filing Small Business
                                 Corporate Tax Returns

                                Entities that request the Internal Revenue Service (IRS)
Background
                                to consider them a small business corporation so they may
                                file a U.S. Income Tax Return for an S Corporation
                                (Form 1120S) must first file an Election by a Small
                                Business Corporation (Form 2553).1 The major advantages
                                of filing as a small business corporation are, generally, the
                                small business pays no corporate tax, and profits or losses
                                are passed through to the shareholders to be reported on
                                their individual income tax returns. A regular corporation
                                that files a U.S. Corporation Income Tax Return
                                (Form 1120) pays corporate taxes on its profits, and its
                                shareholders cannot claim corporate losses on their
                                individual returns. According to the IRS, small business
                                corporations currently represent more than one-half of all
                                corporate entities filing tax returns.
                                In September 2002, we issued a report entitled, The Internal
                                Revenue Service Needs to Simplify Filing Requirements and
                                Clarify Processing Procedures for Small Business
                                Corporate Returns.2 Senator Christopher Bond, Ranking
                                Member of the Senate Committee on Small Business and
                                Entrepreneurship, stated in an October 15, 2002, letter to the
                                IRS Commissioner and the Commissioner, Small
                                Business/Self-Employed (SB/SE) Division, that this report,
                                “sets out a number of recommendations for correcting the
                                election-processing and return-filing problems facing
                                S corporations and the IRS. I urge you and your staff to
                                give these recommendations serious consideration.”
                                This audit was conducted during the period January through
                                June 2004 at the Brookhaven IRS Campus3 covering work
                                performed by the SB/SE Division’s Compliance and
                                Customer Account Services functions. The audit was
                                conducted in accordance with Government Auditing
                                Standards. Detailed information on our objective, scope,
                                and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.


                                1
                                  Internal Revenue Code, 26 U.S.C. §§ 1362 (a) and (b) (1994).
                                2
                                  Reference Number 2002-30-186, dated September 2002.
                                3
                                  The data processing arm of the IRS. The campuses process paper and
                                electronic submissions, correct errors, and forward data to the
                                computing centers for analysis and posting to taxpayers’ accounts.
                                                                                             Page 1
            Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
                Fair and Consistent Tax Treatment When Filing Small Business
                                    Corporate Tax Returns

                                   In our prior report, we recommended the IRS simplify the
The Internal Revenue Service       process of filing election Forms 2553 and Forms 1120S for
Needs to Continue to Pursue        new filers by identifying and implementing alternatives to
Legislative Changes and            make it easier for first-time filers to be granted elections and
Alternative Measures to Make the   to file their Forms 1120S. We also recommended the IRS
Current Election Process Less      seek modification of the legal requirements.
Burdensome
                                   In response to our report, the IRS formed a task force4 to
                                   study and resolve the causes identified in the report. The
                                   overall scope of the team’s efforts included the study of the
                                   Form 2553 election process, including delinquent elections,
                                   as well as the process for converting invalid Forms 1120S to
                                   Forms 1120. Part of the team’s efforts resulted in a
                                   Revenue Procedure being issued in June 2003 that granted
                                   relief for failing to file elections timely if the request for
                                   relief is filed within 24 months of the due date of the
                                   election.5
                                   Other actions considered or taken in this area include the
                                   following:
                                       •   The Taxpayer Advocate’s Report to Congress in
                                           January 2003 specifically recommended Internal
                                           Revenue Code (I.R.C.) Section (§) 1362 (b)(1)(B) be
                                           amended to allow a small business corporation to
                                           elect to be treated as an S corporation when it files
                                           its first Form 1120S return.
                                       •   In January 2004, the Office of Taxpayer Burden
                                           Reduction proposed that a team be created to
                                           recommend legislative changes for S corporations.
                                           It proposed the creation of a team to evaluate the
                                           viability of amending I.R.C. § 1362 (b)(1)(B) to
                                           allow a small business corporation to elect to be
                                           treated as an S corporation when it files its first
                                           Form 1120S return. The team created by the Office
                                           of Taxpayer Burden Reduction also proposed, as an


                                   4
                                     Team members included analysts from the SB/SE Division’s
                                   Headquarters Reporting Compliance function and the Business Master
                                   File Policies, Procedures, and Guidance Branch, as well as field
                                   employees from the submission processing sites.
                                   5
                                     Rev. Proc. 2003-43 granted relief by allowing additional time for
                                   taxpayers to obtain a timely election.
                                                                                                Page 2
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                                alternative, amending the regulations regarding the
                                manner of making elections to possibly eliminate the
                                filing and processing of election forms.
                           •    In April 20, 2004, testimony before the Committee
                                on Government Reform, the IRS Commissioner
                                indicated the IRS is evaluating the viability of
                                amending portions of I.R.C. § 1362 to create a less
                                burdensome process for a corporate taxpayer seeking
                                to be taxed as an S corporation.
                           •    The IRS also plans to revise letters to instruct
                                taxpayers on the need to file timely elections and the
                                availability of relief provisions.
                       While there has been some attention given to correcting the
                       problem, legislation and procedures still need to be changed
                       to further reduce taxpayer burden in this area.
                       In the prior report, we estimated that, each year, over
                       46,000 small businesses are unsuccessful in filing their
                       Forms 1120S because the IRS does not have valid elections
                       on file to allow their returns to be processed. Although we
                       were unable to quantify actual burden costs, we estimated
                       taxpayers spend 3.2 million hours each year to prepare,
                       copy, assemble, and send these returns to the IRS, which
                       could not successfully process them. Also, it costs the IRS
                       an estimated $264,0006 annually to handle the Forms 1120S
                       that could not be processed.7
                       Taxpayers and the IRS still need to perform too many steps
                       before Forms 1120S can be successfully processed for
                       first-time filers (see Appendix IV). These steps are
                       time-consuming and burdensome for the IRS and for
                       first-time filers who are not familiar with all of the
                       necessary steps. If the IRS continues with its current
                       policies for the filing and recording of elections, many
                       first-time filers of Forms 1120S will continue to be
                       unsuccessful in filing their returns.


                       6
                         This total does not include the cost of the IRS’ attempts to resolve the
                       unprocessable conditions.
                       7
                         Based on projected increases in the filings of Forms 1120S, there are
                       indications that these figures may increase slightly.
                                                                                          Page 3
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                       Recommendation

                       The Director, Taxpayer Education and Communication,
                       SB/SE Division, should:
                       1. Adopt interim measures, while the IRS pursues
                          legislative changes, to reduce taxpayer burden and the
                          volume of unprocessable Forms 1120S. The Director
                          should consider increasing the frequency and
                          availability of taxpayer and practitioner education
                          through publicity and online information regarding the
                          requirements to file an election prior to filing the first
                          Form 1120S, and the evidence needed to document that
                          the IRS approved the election.
                       Management’s Response: The Commissioner, SB/SE
                       Division, agreed with our recommendation and the need to
                       continue expanding taxpayer education on requirements for
                       filing small business corporation elections. The IRS is
                       currently pursuing the options of legislative or regulatory
                       change, while increasing their communication with
                       taxpayers. SB/SE Division management plans to add new
                       language to the next edition of their Small Business Tax
                       Workshop materials due to be published in late spring
                       2005.8 The additional information will explain the
                       requirement to file an election prior to filing the first
                       Form 1120S and describe the evidence needed to document
                       that the IRS approved the election.
                       An article on Form 1120S elections will be developed and
                       distributed as a Taxpayer Education and Communication
                       Headliner through their stakeholder distribution channels to
                       payroll and practitioner associations; trade, business, and
                       professional associations; government agencies; and
                       educational organizations. Once distributed through the
                       channels, the Headliner will be posted on irs.gov/smallbiz.




                       8
                        Small Business Tax Workshop: Student Workbook (Publication 1066)
                       and Virtual Small Business Tax Workshop Digital Video Disc
                       (Publication 1066C).
                                                                                  Page 4
            Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
                Fair and Consistent Tax Treatment When Filing Small Business
                                    Corporate Tax Returns

                                   In the prior audit, we also reported the IRS did not
The Internal Revenue Service Did
                                   consistently determine the correct and proper taxes due from
Not Take Sufficient Actions to
                                   small business corporate taxpayers. In the current review,
Promote Fair and Equitable
                                   we found that more needs to be done to ensure IRS
Compliance Practices for
                                   compliance efforts are effective with regard to
Taxpayers Who Filed
                                   unprocessable Forms 1120S. The IRS did not take
Unprocessable Forms 1120S
                                   sufficient actions to promote fair and equitable compliance
                                   practices for small business corporate taxpayers in the
                                   following areas:
                                       •   Policies and procedures have still not been
                                           developed to calculate and assess the correct taxes
                                           for taxpayers who filed unprocessable Forms 1120S.
                                       •   The IRS did not provide the staffing needed to
                                           correct unprocessable Forms 1120S compliance
                                           issues.
                                   Policies and procedures have still not been developed to
                                   calculate and assess the correct taxes for taxpayers who
                                   filed unprocessable Forms 1120S
                                   IRS compliance policies and procedures for the conversion
                                   of unprocessable Forms 1120S to Forms 1120 have been
                                   unclear for at least the last 5 years9 and have led to
                                   inconsistent treatment of taxpayers. IRS policies and
                                   procedures have resulted in the conversion of Forms 1120S
                                   to Forms 1120 without the calculation and assessment of
                                   correct tax liabilities.
                                   In the prior review, we also reported the IRS did not
                                   consistently process Forms 1120S and determine the correct
                                   taxes due from small business corporate taxpayers. We
                                   estimated that, because returns were not processed correctly,
                                   there was the potential for the erroneous assessment of taxes
                                   on $41 million of profits and the inability of taxpayers to


                                   9
                                     An initial District Counsel opinion was requested on
                                   November 24, 1998. The Philadelphia IRS Campus sought advice from
                                   the Office of District Counsel regarding the following two questions:
                                       1.    May IRS campuses prepare proper income tax returns from the
                                             improper returns that taxpayers file with the IRS?
                                       2.    May the IRS assess tax liabilities based on the returns it
                                             prepares without following the statutory notice of deficiency
                                             procedures under I.R.C. §§ 6212 and 6213?
                                                                                                  Page 5
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                       claim $100.3 million in losses.10 In addition, because of
                       unclear IRS procedures, we estimated that each year,
                       approximately 3,700 taxpayers who file unprocessable
                       Forms 1120S may have their rights violated because the IRS
                       assesses taxes on profits of approximately $6.7 million
                       without providing taxpayers with a statutory notice of
                       deficiency.11
                       In response to the prior report,12 the IRS cited the following
                       causes for the inconsistent handling of unprocessable
                       Forms 1120S:
                              We have not developed clear and consistent guidelines
                              for processing the Form 1120S when delinquent
                              elections are received. Taxpayers are subject to
                              inconsistent treatment when invalid 1120S returns are
                              converted to Form 1120.
                             Current IRM13 procedures do not clearly explain how
                             these cases should be processed.
                       Thus far, the IRS has not developed formal procedures to
                       calculate and assess the correct taxes for unprocessable
                       Forms 1120S. Although the IRS had procedures in place
                       for a local project in one campus, they were used only for a
                       relatively small number of tax returns worked in the
                       Correspondence Examination function and not for all
                       incoming unprocessable Forms 1120S.
                       The IRS has the authority and responsibility for providing
                       procedures and consistently applying them to determine the
                       correct taxes due by corporate taxpayers. In addition, the
                       Government Accountability Office14 Standards for Internal

                       10
                          We had reported the IRS did not process an estimated 9,000 returns as
                       small business corporations, even after the taxpayers verified that their
                       election requests were granted.
                       11
                          A statutory notice of deficiency is a notice that allows the taxpayer to
                       respond to the proposed assessment before taxes are actually assessed.
                       12
                          The report was issued in September 2002; the implementation date for
                       the corrective action was January 1, 2004. The IRS agreed to work with
                       the Office of Chief Counsel to determine the proper way to assess taxes
                       on small business corporate returns that could not be processed and
                       update the appropriate Internal Revenue Manual procedures.
                       13
                          Internal Revenue Manual.
                       14
                          Formerly the General Accounting Office.
                                                                                         Page 6
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                       Controls in the Federal Government indicate internal
                       controls should provide reasonable assurance that the
                       effectiveness and efficiency of operations are achieved.
                       Because these procedures have not been revised or clarified,
                       taxpayers who file unprocessable Forms 1120S will
                       continue to be subjected to inconsistent handling of the
                       profits and losses from Forms 1120S that were converted to
                       Forms 1120. The following list demonstrates the adverse
                       effects and the need for developing and revising current
                       policies and procedures:
                            •   Unprocessable Forms 1120S are being converted to
                                Forms 1120 without calculation of the correct
                                taxes. IRS instructions provide for putting a blank
                                copy of a Form 1120 over an unprocessable
                                Form 1120S, renumbering the blank Form 1120 to
                                appear as though a Form 1120 was filed, and
                                recording a zero dollar tax assessment for that return,
                                regardless of whether there is a gain, so IRS records
                                indicate a corporate return was filed. There is a legal
                                requirement15 that there must be sufficient data with
                                which to calculate the tax liability on a Form 1120S
                                to convert the Form 1120S to a Form 1120.
                                However, the IRS is not using this data to calculate
                                the correct tax liabilities.




                       15
                         Memorandum for District Counsel, Pennsylvania District, from
                       Assistant Chief Counsel (Field Services) CC:DOM:FS, dated
                       May 20, 1999; Subject: Significant Service Center Advice. Page 2 of
                       this memorandum, under Law and Analysis, provides the criteria
                       regarding “The Incorrect Forms That Provide Sufficient Data to
                       Calculate Tax Liability Constitute Returns.” Generally, the legal
                       requirements that must be met for an unprocessable Form 1120S to be
                       converted to a Form 1120 are, “First, there must be sufficient data to
                       calculate a tax liability; second, the document must purport to be a
                       return; third, there must be an honest and reasonable attempt to satisfy
                       the requirements of the tax law; and fourth, the taxpayer must execute
                       the return under the penalties of perjury.”
                                                                                         Page 7
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                            •   Taxpayers’ rights are potentially being violated
                                because required statutory notices of deficiency16
                                are not always being issued. Our review showed
                                that 12.7 percent (24 of 189)17 of the applicable
                                taxpayers in our sample had taxes assessed of
                                approximately $927,000 on $2.7 million in gains
                                without statutory notices being issued.
                            •   Gains and losses on unprocessable Forms 1120S
                                are not being properly addressed. Taxes on
                                approximately $935,000 in gains for 36.5 percent
                                (69 of 189) of the applicable taxpayers in our sample
                                were not assessed. Further, unallowable losses of
                                approximately $1.7 million from 43.4 percent (82 of
                                189) of the unprocessable Forms 1120S may not
                                have been disallowed to the shareholders.18
                            •   Most Forms 1120 converted from unprocessable
                                Forms 1120S were either not evaluated for their
                                examination potential or evaluated but not
                                examined. The evaluation of examination potential
                                was curtailed in Calendar Year 2003, apparently to
                                reduce the number of converted Forms 1120S from
                                automatically being sent for evaluation. However,
                                current IRS procedures still require that these
                                converted returns be automatically sent to the
                                Examination function for evaluation of their
                                examination potential. Required procedures are not

                       16
                          The advice provided by the Office of District Counsel on
                       May 20, 1999, indicated incorrect returns that provide sufficient data
                       with which to calculate tax liabilities constitute returns and the IRS must
                       follow deficiency procedures to make the related tax assessments. A
                       statutory notice of deficiency is a notice that allows the taxpayer to
                       respond to the proposed assessment before taxes are actually assessed.
                       17
                          Our total sample was 215 cases. For the purposes of this calculation,
                       we used 189 cases because the remaining 26 cases either had no
                       return/assessment posted (7 cases) or were processed as Forms 1120S
                       (19 cases).
                       18
                          We concluded that losses from unprocessable Forms 1120S may not
                       have been disallowed because we were informed shareholder returns
                       were not being worked in one campus due to inadequate resources and
                       the fact that only a small volume of invalid election returns were being
                       examined. The scope of this audit did not include a review of the
                       shareholders’ individual income tax returns with losses.
                                                                                          Page 8
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                                being followed and fewer of the cases converted to
                                Forms 1120 are evaluated and examined. If
                                unprocessable Forms 1120S converted to
                                Forms 1120 are not evaluated and examined, the
                                correct taxes due will not be calculated and assessed
                                on unprocessable Forms 1120S.
                       The IRS did not provide the staffing needed to correct
                       unprocessable Form 1120S compliance issues
                       While the IRS has recognized the need to work
                       unprocessable Form 1120S cases, more needs to be done to
                       commit sufficient resources to ensure fair and equitable
                       compliance practices.
                       As a result of our September 2002 report, the IRS stated,
                             Correspondence Examination (Corr. Exam)
                             has agreed to begin working these cases in FY 04
                             [Fiscal Year 2004]. The number of cases that will be
                             worked has yet to be determined. The invalid election
                             issues, both IMF19 and BMF,20 will be worked by tax
                             examiners who will have assistance from other
                             technical employees as needed.
                       The IRS also indicated it needed additional time to review
                       the process in place since the issuance of policy and
                       procedural changes21 in June 2003. Consequently, it has
                       delayed implementation of the corrective actions from
                       January 1, 2004, to January 15, 2005.
                       The IRS policy and procedural changes issued in June 2003
                       granted relief for failing to file elections timely if the
                       request for relief is filed within 24 months of the
                       due date of the election. However, this change may not
                       necessarily reduce the volume of unprocessable
                       Forms 1120S or affect the staffing needed to process these
                       returns.

                       19
                          The IMF is the Individual Master File, which is the IRS database that
                       maintains transactions or records of individual tax accounts.
                       20
                          The BMF is the Business Master File, which is the IRS database that
                       consists of Federal tax-related transactions and accounts for businesses.
                       These include employment taxes, income taxes on businesses, and
                       excise taxes.
                       21
                          Rev. Proc. 2003-43.
                                                                                         Page 9
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                       We were informed that, as of March 2004, the Cincinnati
                       Submission Processing Site was still not working
                       unprocessable Form 1120S conversion cases and related
                       investors’ returns due to inadequate staffing and the
                       requirement to use statutory deficiency procedures. A year
                       before, in March 2003, S Corporation task force minutes
                       also indicated that the Cincinnati Submission Processing
                       Site, one of the two sites responsible for processing
                       Forms 1120S, did not work the investor side of the
                       Form 1120S conversion issue because of inadequate
                       staffing. In March 2003, the Ogden Submission Processing
                       Site also requested permission not to work approximately
                       6,500 converted S corporation returns for the same reason.
                       The SB/SE Division Inventory Delivery Report for FY 2004
                       showed the IRS was going to work only 300 unprocessable
                       Form 1120S cases. We have not been provided with any
                       evidence that additional funding or staffing was requested
                       for this purpose.
                       In FY 2003, an S Corporation Project was conducted in only
                       one (Ogden) of the two sites processing Forms 1120S, and
                       its accomplishments were significant. This project was
                       7th highest (of approximately 140 projects) in recommended
                       dollar assessments. Recommended dollars totaled over
                       $4 million for approximately 3,600 returns, for which the
                       IRS spent 1.4 hours per return.22
                       Unless sufficient resources are devoted to working these
                       cases, compliance efforts for this taxpayer segment will not
                       be sufficient or fairly administered. Although the volume of
                       unprocessable Forms 1120S has continued to increase over
                       the last 6 years,23 fewer cases are planned or expected to be
                       worked. Working so few cases reduces recommended
                       dollar assessments and hampers the IRS’ ability to foster
                       taxpayer compliance.



                       22
                          This information is based on Audit Information Management System
                       Table SC 38 for FY 2003.
                       23
                          The overall volume of unprocessable Forms 1120/1120S has
                       significantly increased over the last 6 calendar years, from 88,888 in
                       1998 to 131,411 in 2003.
                                                                                     Page 10
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                       Recommendations

                       The Director, Customer Account Services, SB/SE Division,
                       should:
                       2. Develop clear and consistent guidelines for handling
                          unprocessable Forms 1120S. The Internal Revenue
                          Manual (IRM) procedures should clearly explain how
                          these cases should be processed.
                       Management’s Response: SB/SE Division management
                       updated IRM procedures and issued a Program
                       Enhancement to ensure clear and consistent guidelines for
                       handling unprocessable Forms 1120S.
                       The Director, Compliance, SB/SE Division, should:
                       3. Clarify the IRM procedures to assign responsibility for
                          determining and assessing the correct taxes and issuing
                          statutory notices of deficiency for small business
                          corporations and their shareholders when Forms 1120S
                          are converted to Forms 1120 because there were no
                          valid elections on file.
                       Management’s Response: SB/SE Division management
                       will clarify the IRM procedures.
                       4. Clarify the role of the Examination function with regard
                          to unprocessable Forms 1120S that were converted to
                          Forms 1120. The clarification of these procedures needs
                          to take into account that the Assistant Chief Counsel’s
                          opinion indicated statutory notices of deficiency are
                          needed in these conversion cases before taxes are
                          assessed.
                       Management’s Response: SB/SE Division management
                       issued clarification to campus operations regarding the
                       requirement to use Statutory Notice procedures on
                       Form 1120S returns that were converted to Forms 1120.
                       Accompanying IRM changes were also implemented.




                                                                           Page 11
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                       The Commissioner, SB/SE Division, should:
                       5. Commit the necessary resources to ensure unprocessable
                          Forms 1120S and their related shareholders, who filed
                          these returns without valid elections on file, are fairly
                          and consistently taxed.
                       Management’s Response: SB/SE Division management
                       completed preliminary analysis and will compile additional
                       data from a statistically valid sample of audits involving
                       invalid Form 1120S elections and/or their corresponding
                       shareholders. Once the comprehensive analysis is
                       completed, appropriate strategies will be developed.




                                                                           Page 12
              Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
                  Fair and Consistent Tax Treatment When Filing Small Business
                                      Corporate Tax Returns

                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the Internal Revenue Service (IRS) took the
necessary actions to effectively address the burden and compliance issues related to
unprocessable U.S. Income Tax Returns for an S Corporation (Form 1120S). To accomplish this
objective, we:
I.         Determined the status of any actions taken or planned to address the compliance issues
           related to converting unprocessable Forms 1120S to U.S. Corporate Income Tax Returns
           (Form 1120).
           A. Met with national and local management officials to obtain information regarding the
              status of the corrective actions to address our recommendation regarding clarifying
              the procedures and assigning responsibility for determining and assessing the correct
              taxes on converted Forms 1120 resulting from unprocessable small business corporate
              returns.
           B. Determined whether any problems and solutions were identified by reviews
              conducted by the Government Accountability Office1 and the Taxpayer Advocate
              Office relating to assessing and completely processing converted Forms 1120.
           C. Determined whether the IRS had received or justified the need for additional funding
              or staffing to work the converted corporation returns and related shareholders’
              individual income tax returns.
II.        Determined whether policies and procedures were established to ensure taxes were
           properly assessed on Forms 1120S that could not be processed.
           A. Reviewed the Internal Revenue Manual (IRM) and other written instructions to
              determine the procedures established to convert unprocessable Forms 1120S to
              Forms 1120.
           B. Reviewed procedures established to evaluate the examination potential of Forms 1120
              converted from unprocessable Forms 1120S.
           C. Held discussions with national and local management officials (including the Office
              of Chief Counsel) to obtain information regarding:
                   1. The proper method of assessing taxes on small business corporate returns that
                      could not be processed.



1
    Formerly the General Accounting Office.
                                                                                            Page 13
            Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
                Fair and Consistent Tax Treatment When Filing Small Business
                                    Corporate Tax Returns

                 2. Any specific IRM or Law Enforcement Manual procedural changes that affect
                    the examination screening and conversion processes.
III.    Determined whether IRS processing procedures and examination screening adequately
        ensured taxes were accurately assessed and compliance goals were achieved for
        Forms 1120S that could not be processed.
        A. Selected and reviewed a statistical sample of 215 taxpayer accounts. We used
           attribute sampling at a 95 percent confidence level and an expected error rate not over
           10 percent with a precision level of +/- 4 percent. We used a computer extract to
           determine the volume (71,931) of unprocessable small business corporate returns
           (Unpostable Code 310 with Reason Codes 2, 4, 5, and 6, which relate primarily to
           Forms 1120S) that were resolved with an Unpostable Resolution Code (URC)2 8 for
           Calendar Year 2002. We then identified the 49,999 returns for Tax Year 2001 that
           were worked by the Cincinnati and Ogden Submission Processing Sites.3 We used
           the 49,999 return population to select the statistically valid sample of 215 cases.
        B. Reviewed the sample of 215 accounts by analyzing various IRS records and the
           related tax returns to determine whether elections were present in accounts,
           Forms 1120S were successfully processed, there was evidence that the converted
           Forms 1120s were sent for examination screening, tax returns were transshipped to
           other IRS sites for examination screening, and Statutory Notices of Deficiency4 were
           used before taxes were assessed on converted Forms 1120.
        C. Matched the 215 cases against the IRS Schedule K-1 matching files5 to potentially
           quantify income and losses from the corporations.
        D. Analyzed information gathered to determine whether there were any trends or
           patterns to indicate the IRS’ traditional screening practices and processing procedures
           relating to unprocessable Forms 1120S needed to be more vigorously addressed and
           revised.




2
  Unpostable Code 310 is generated when the filing requirements of the Forms 1120 or 1120S do not match the
information in the IRS’ computerized files. URC 8 removes the record from the Submission Processing Unpostable
Master File of taxpayer accounts.
3
  Because the Cincinnati and Ogden IRS Campuses now process all of the business tax returns, we selected our
sample from those two Campuses. The campuses are the data processing arms of the IRS. They process paper and
electronic submissions, correct errors, and forward data to the computing centers for analysis and posting to
taxpayers’ accounts.
4
  A notice that allows the taxpayer to respond to the proposed assessment before taxes are actually assessed.
5
  The IRS uses the Schedule K-1 to determine whether the shareholders of the S Corporation are reporting their
distributive share of profits and losses on their individual income tax returns.
                                                                                                      Page 14
          Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
              Fair and Consistent Tax Treatment When Filing Small Business
                                  Corporate Tax Returns

                                                                                 Appendix II



                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Robert K. Irish, Audit Manager
Michael D. Luongo, Lead Auditor
Bernard Kelly, Senior Auditor
Philip Peyser, Senior Auditor




                                                                                       Page 15
          Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
              Fair and Consistent Tax Treatment When Filing Small Business
                                  Corporate Tax Returns

                                                                               Appendix III


                                 Report Distribution List
Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:T
Assistant Director, Customer Account Services, Small Business/Self-Employed Division
SE:S:CAS
Director, Internal/External Stakeholders, Small Business/Self-Employed Division SE:S:C:CP:I
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 16
            Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
                Fair and Consistent Tax Treatment When Filing Small Business
                                    Corporate Tax Returns

                                                                                                   Appendix IV


                      How Small Business Corporate Taxpayers File,
                       and the Internal Revenue Service Processes,
                    Small Business Corporate Elections and Tax Returns

The process generally includes the following steps:
    •   Taxpayers file an Election by a Small Business Corporation (Form 2553) before filing
        their initial U.S. Income Tax Return for an S Corporation (Form 1120S).
    •   The election is processed separately from the initial Form 1120S by the Internal Revenue
        Service (IRS), given a unique Document Locator Number (DLN),1 and assigned a unique
        transaction code. The transaction code is recorded in a separate section of the IRS’
        computerized record of tax accounts from the section in which the tax return is recorded.
    •   The IRS sends notices to taxpayers to inform them that their elections have been accepted
        or rejected. If a Form 2553 is incomplete or information is incorrect, the IRS
        corresponds with the taxpayer to obtain the necessary information and suspends the
        Form 2553 from further processing while awaiting the taxpayer’s response.
    •   If a taxpayer files a Form 1120S and the IRS has no record of the election on file, the
        Form 1120S cannot be processed; it becomes what the IRS calls “unpostable.” This
        Form 1120S is transferred from a processing unit to the unpostable unit for research and
        resolution.
    •   After preliminary research, if the IRS cannot determine that a valid election is on file, the
        IRS sends the taxpayer a letter instructing the taxpayer to submit verification that an
        election was granted (e.g., a copy of the IRS acceptance notice or evidence of approved
        election) or to file a completed U.S. Corporation Income Tax Return (Form 1120).
    •   The taxpayer has to respond within 30 days with the requested information. If the IRS
        does not receive a response to the letter, the IRS generally renumbers the Form 1120S to
        a Form 1120.
    •   The IRS is required to send the tax return to the Compliance Services/Classification
        function for screening.
    •   The IRS would then have to determine the correct and proper tax due by the corporate
        taxpayer.



1
 A unique number assigned to every tax return/document to assist in controlling, identifying, and locating
documents.
                                                                                                             Page 17
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns

                                                              Appendix V


          Management’s Response to the Draft Report




                                                                     Page 18
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns




                                                                     Page 19
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns




                                                                     Page 20
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns




                                                                     Page 21
Increased Attention Is Needed to Reduce Taxpayer Burden and Ensure
    Fair and Consistent Tax Treatment When Filing Small Business
                        Corporate Tax Returns




                                                                     Page 22
